TN

C@OCKLE

2311 Douglas Street Le ga ] Brief s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-725
JONMICHAEL GUY,
Petitioner,

Vv.
ROBERT O. LAMPERT, Director,
Wyoming Department of Corrections, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 8th day of January, 2020, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE MUSLIM ADVOCATES IN
SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been served by Priority Mail.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:

FARHANA KHERA T. ESTHER SILBERSTEIN

Counsel of Record AEGIS LAW GROUP LLP
MATTHEW W. CALLAHAN 801 Pennsylvania Ave. NW
MUSLIM ADVOCATES Suite 740
P.O. Box 34440 Washington, D.C. 20004
Washington, D.C. 20043 (202) 737-3831
(202) 897-2622 esilberstein@aegislawgroup.com
farhana@muslimadvocates.org
matthew@muslimadvocates.org Counsel for Amicus Curiae

KRISTIN C. DAVIS
THOMPSON HD

1015 15th Street NW
Suite 600

Washington, D.C. 20005
(202) 367-6178
kdavis@thompsonhd.com

Subscribed and sworn to before me this 8th day of January, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

1
General Notary .
State of Nebraska : EC hig OQudrawr Ke, Gh
My Commission Expires Nov 24, 2020 ’
Notary Public Affiant 39317

 
 

Attorneys for Petitioner

Amir H. Ali Roderick & Solange MacArthur Justice Center 202-869-3434
Counsel of Record 777 6th Street NW
11th Floor

Washington, DC 20001

amir.ali@macarthurjustice.org

Party name: JonMichael Guy

 

 

Attorneys for Respondents

Michael James McGrady Wyoming Attorney General's Office 307-777-7495
Counsel of Record 2320 Capitol Avenue
Cheyenne, WY 82002

mike.mcgrady1@wyo.gov

Party name: Robert O. Lampert, Director, Wyoming Department of Corrections, et al.

 

 
